No. _______________
_____________________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
_____________________________________________________
ANTWAUN BUSH,
Petitioner,
v.
CITY OF PITTSBURGH, ET AL.,
Respondents.
_____________________________________________________

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Third Circuit
_____________________________________________________
PETITION FOR A WRIT OF CERTIORARI
_____________________________________________________
Counsel for Antwaun Bush:
STEVEN M. TOPRANI, COUNSEL OF RECORD
PA. I.D. 93217
LAW OFFICE OF STEVEN TOPRANI
18 West Cherry Avenue
Washington, PA 15301
stevetoprani@gmail.com
Tel. 412-997-7775

ii
QUESTION PRESENTED
1.

Whether the United States Court of Appeals for the

Third Circuit, the court below, erred in determining that
the failure of defendants to contest, challenge or otherwise
avail themselves of state procedural mechanisms to attack
a writ of summons constitutes waiver of the statute of
limitations defense in a subsequent federal action where
the parties and the claims are the same.

iii
PARTIES TO THE PROCEEDING
The caption does not name all of the parties to the
proceedings in the court of appeals below.
Petitioner is Antwaun Bush who was the plaintiff in
the district court. Respondents are the City of Pittsburgh
Bureau of Police; Nathan Harper; Officer Donald Snider;
Officer Daniel Joseph Paga, Jr.; Officer Charles Thomas;
Officer Morgan Jenkins; Officer Charles Henderson and
Officer David Canon.

Plaintiff Antwaun Bush was the

appellant and the City of Pittsburgh and the individual
defendants were the appellees in the circuit court.

iv
TABLE OF CONTENTS
QUESTION PRESENTED…………………...……ii
PARTIES TO THE PROCEEDING………..…….iii
TABLE OF CONTENTS………………..…….……iv
TABLE OF AUTHORITIES
OPINIONS BELOW…………………….…..………v
JURISDICTION…… …………………………..…..v
STATUTORY PROVISIONS AND RULES
INVOLVED…………………………………………..v
STATEMENT OF THE CASE………………….....2
REASON FOR GRANTING THE WRIT…………6
CONCLUSION………………………………..……...8
APPENDIX

v
PETITION FOR A WRIT OF CERTIORARI
Antwaun Bush respectfully petitions for a writ of
certiorari to review the order, entered on direct appeal, of
the United States Court of Appeals for the Third Circuit
(“Third Circuit”).
OPINIONS BELOW
The Third Circuit’s decision is reported at No. 191009, United States District Court for the Third Circuit,
filed June 11, 2020, a non-precedential opinion and is
included in the Appendix beginning at 1.

The United

States District Court for the Western District of
Pennsylvania’s decision is included in the Appendix at 5,
at docket 2:16-cv-00926, U.S. Dist. Ct. for Western District
of Pennsylvania.

JURISDICTION
The Third Circuit issued its decision on June 11,
2020, See App’x 1. This Court’s jurisdiction in invoked
under 28 U.S.C. § 1254(1). This Petition is filed within 150
days of the decision of the appeals court as consistent with
the COVID Pandemic Order of this Court issued on March
19, 2020 which provides that “IT IS ORDERED that the
deadline to file any petition for writ of certiorari due on or
after the date of this order is extended to 150 days from the
date o the loer court judgment. See Rule 13.1 and 13.3.”
ORDER LIST: 599 U.S.

STATUTORY PROVISIONS AND RULES INVOLVED
The text of statutes or rules is not at issue in this
Petition.

2
STATEMENT OF THE CASE
This case presents a single issue of importance in the
Third Circuit. The question is whether the Third Circuit
erred in holding that a writ of summons filed in state court,
when not defended or contested by the party against whom
it is filed, fails to toll the statute of limitations for a federal
cause of action thereafter filed in the district court.
The lawsuit underlying this Petition arose in a
troubled neighborhood in the City of Pittsburgh, known for
violence and criminal activity. At issue is the malicious
and unconstitutional use of force by the City of Pittsburgh’s
Bureau of Police, when they deployed a K-9 police unit to
maul and attack a potential suspect all as a means to cause
a confession.
The alleged facts part of the district court’s record
are as follows. On February 15, 2012, around 11:00 pm, a
woman called 9-1-1 to report that an incident of domestic
violence occurred at an address in Pittsburgh. Thereafter,
a second 9-1-1 call reported that a black man wearing a fur
hat and blue jeans was waving a gun in a parking lot.
Officer Snider was dispatched to the location described in
the calls. Upon arrival at the scene, Snider exited the

3
police car, drew his weapon, and saw a man with a similar
description as the suspect. A woman yelled “that’s him” to
the officer.
At this time, Antwaun Bush fist saw Snider with a
gun drawn and ran away, with a foot chase ensuing.
Officers contend that during a 300-yard pursuit, a gun was
visible on Bush, however, no gun was ever recovered
despite a canvassing of the area by police investigators.
Bush contends that he never possessed a firearm but ran
due to the surprise and having been on state parole.
Officers encountered Bush within minutes, as he
was confined in a fenced-in back yard, lying face down on
the ground. Office Paga acknowledged in deposition that
Bush appeared to be lying still on his abdomen with arms
outstretched, anticipating arrest. Other officers, namely
Sergeant Henderson, also arrived on scene and provided
“lethal coverage” while Officer Paga deployed his K-9,
Mixo, by lifting the police dog over the fence and
commanding him to bite Bush. Mixo began biting Bush in
the lower leg.
The parties accounts diverge at this point.

The

officers contend that Bush refused to show his hands, and
was thus not complying with orders. Bush contends,

4
instead, that once Paga began biting him, he was
incapacitated and in tremendous pain, unable to resist
arrest. Bush contends that police officers then dragged
him from the enclosure and continued to apply unlawful
force by punching, dragging and kneeling on him. Mixo
continued to bark in his face and display aggression.
Bush commenced an action in state court against the
Defendants on January 30, 2014 when his prior lawyer,
with whom he had little contact, filed a Writ of Summons
in the Court of Common Pleas of Allegheny County. Bush
filed a district court action under Section 1983 on June 22,
2016. The defendants filed to take any action with respect
to the writ, in essence ignoring it, and did not avail
themselves of any defensive actions under state law.
After nearly two years of litigation in the district
court, Defendants for the first time filed a motion for
summary judgment which raised, inter alia, a statute of
limitations defense. The district court, in agreeing with
defendants’ position that the writ of summons fails to toll
a federal court action, even when not objected to, granting
the motion and dismissed the action. The district court
stated in dicta that Bush failed to remove his own action to
federal court, of which there is no procedure to do so.

5
The district court based its ruling entirely on sister
district court decisions.
Bush filed a timely appeal to the Third Circuit. The
appeals court denied oral argument and resolved the
appeal on brief, determining, in a four-page opinion, that
an un-objected to writ in state court fails to toll relative
federal court claims. Bush’s claims, at the time of filing the
writ, were predominantly federal question claims for
excessive force and other Section 1983 causes of action. On
appeal, Mr. Bush contended that the failure of defendants
to avail themselves of any of the procedural tools to
challenge or contest the writ – that result of which renders
them unable to later assert a statute of limitations defense
due to waiver.

6
REASONS FOR GRANTING THE WRIT
I.

The Decision to Affirm the Grant of Summary
Judgment Was Made Without Citation to any
Precedential Authority and Was Arbitrary.
Antwaun Bush, on appeal, asserted that the failure

of defendants to contest, challenge or otherwise avail
themselves of state procedural mechanisms to attack a writ
of summons constitutes waiver of the statute of limitations
defense.
The Third Circuit rejected this argument without
citation to any precedential authority. Instead, the appeals
court concluded it was unwilling to extend the rule tolling
the statute to cases filed in federal court, despite the fact
that it involved the same claims and parties.

In so

concluding, the appeals court cited to no authority or
procedural rule.
Such a decision by the appeals court may jeopardize
future claims where plaintiffs assert federal causes of
action in state court, for statute of limitation purposes only,
and defendants failed to defend and otherwise ignored the
action, despite being on actual notice.

7
Specifically, the appeals court failed to consider

Pettinato v. Allegheny County, 2011 WL 2672040 (W.D.
Pa. 2011), which required the filing and service of a writ of
summons on all defendants to preserve the statute of
limitations. Further, the appeals court disregarded that
while state law governs the length of the statute of
limitations, federal law governs accrual. Kacj v. Hose, 589
F.3d 626 (3d Cir. 2009). Once a plaintiff files and serves a
writ under Pennsylvania law, the statue is satisfied.

Galbraith v. Gahagen, 204 A.2d 251, 253 (Pa. 1964).
Pennsylvania procedural rules require defendants to “take
the nest step of ruling to file (their) complaint.” Id.
Finally, the appeals court disregarded Schutz v.

Honick, 2012 WL 393501 (W.D. Pa. 2012), which applied
Galbraith, and concluded that “under Pennsylvania law,
once the writ of summons is timely served the statute of
limitations is satisfied and defendant’s only remedy lies in
(Pa.R.Civ.P.) Rule 1037.
Federal

courts

interpreting

Pennsylvania

procedures and case law also concluded that a prejudiced
defendant must seek dismissal pursuant to Rule 1037, not
under the statute of limitations.”

8
CONCLUSION
The petition for writ of certiorari should be granted.
Respectfully submitted,
STEVEN M. TOPRANI, Counsel of Record
Counsel for Antwaun Bush
Pa.Id. 93217, a member of the bar of the United States
Supreme Court
Law Offices of Steven Toprani
18 West Cherry Avenue, Washington, PA 15301
Tel. 412-997-7775

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that
the petition for writ of certiorari contains 1,419 words,
excluding the parts of the petition that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is tue
and correct.
Executed on November 8, 2020
Steven M. Toprani, Esquire

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I certify that the
petition for writ of certiorari (three copies) was served on
counsel for defendants by first class mail, postage prepaid
on Monday, November 9, 2020:
Yvonne Hilton, Esquire, City Solicitor
Kezia O. L. Taylor, Esquire, Associate City Solicitor
City of Pittsburgh Law Department
414 Grant Street #313
Pittsburgh, PA 15219

Steven M. Toprani, Esquire

Appendix 1
NOT PRECENTIAL
UNITED STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT
No.: 19-1009
ANTWAUN BUSH, Appellant
v.
CITY OF PITTSBURGH, ET AL., Appellee
Appeal from the United States District Court for the
Western District of Pennsylvania
(D.C. Civil No. 2-16-cv-00926)
District Judge Honorable Cathy Bissoon
Submitted under Third Circuit LAR 34.1(a)
On September 24, 2019
Before: MCKEE, AMBRO and ROTH, Circuit Judges
Opinion Filed June 11, 2020
OPINION
* This disposition is not an opinion of the full Court and
pursuant to IOP 5.7 does not constitute binding
precedent.
1

ROTH, Circuit Judge:
On January 30, 2014, Antwaun Bush initiated an
action in Allegheny County Court of Common Pleas by
filing a praecipe for a Writ of Summons for injuries
incurred during his arrest nearly two years earlier. He
named the City of Pittsburgh, Pittsburgh’s former chief of
police, and several police officers as defendants. He did not
file a complaint of a statement of intention to proceed.
Roughly two and a half years later and approximately four
and a half years after the events that gave rise to his causes
of action, Bush initiated a separate action in United States
District Court for the Western District of Pennsylvania
regarding the same events and against the same
defendants, alleging both state tort claims and federal
claims under 42 USC Section 1983. The District Court
granted the defendants’ motion for summary judgment on
the grounds that Bush’s claims were time-barred. Bush
has appealed. We will affirm the District Court’s grant of
summary judgment.
I.
We have jurisdiction over this appeal under 28 USC
Section 1291. In reviewing the District Court’s decision
granting summary judgment, we exercise plenary review.1
II.
In determining the statute of limitations for Section
1983 claims, we apply “the personal injury tort law of the
state where the cause of action arose.”2 In Pennsylvania,
2
1
2

Lupyan v. Corninthian Colls., Inc., 761 F.3d 314, 317 (3d Cir. 2014)
Kach v. Hose, 589 F.3d 626, 634(3d Cir. 2009)

where Bush’s Section 1983 claims arose, the statute of
limitations for personal injury claims is two years. 3 Bush’s
causes of action accrued on February 15, 2012, the date of
his arrest. He filed is complaint in District Court on June
22, 2016, approximately two and a half years after the
statute of limitation for his claims had expired. Bush
argues, however, that the statute of limitations for his
claims brought in federal court was tolled as of January 30,
2014, when he filed a praecipe for a Writ of Summons in
the Allegheny County Court of Common Pleas. 4
Under Pennsylvania Rule of Civil Procedure 1007,
filing a praecipe constitutes the commencement of a civil
action. Once a plaintiff has filed a praecipe for Writ of
Summons, Pennsylvania law permits a defendant to
request the prothonotary to order the plaintiff to file her
complaint. 5 Forgoing this opportunity forecloses the
defendant’s ability to bring a statute of limitations defense.
The rationale for this is simple: By not taking advantage of
the opportunity to compel the plaintiff to timely bring a
complaint, the defendant signals that he is unconcerned
about the timeliness of that complaint. 6
3
3
4

See 42 Pa. Cons. Stat. Section 5524
See Allegheny County Court of Common Pleas Docket No. GD-14-

001416.
See Pa. R. Civ. P. 1037(a) (“[T]he protonotary, upon praecipe of the
defendant, shall enter a rule upon plaintiff to file a complaint. If a
complaint is not filed within twenty days after service of that rule,
the prothonotary, upon praecipe of the defendant, shall enter a
judgment of non pros.”).
6
See Galbraith v. Gahagen, 204 A.2d 251, 252 (Pa. 1964) (“[W]here
the plaintiff has had the summons served upon the defendant, the
defendant … is thus made aware of the lawsuit pending against him,
he cannot complain if the plaintiff takes his time and files the
complaint more than two years after service.”).
5

Thus, if a defendant has been timely served a praecipe for
a Writ of Summons in the state court in which the plaintiff
ultimately brings his complaint, the statute of limitations
is tolled and the plaintiff can file her complaint past the
statutory period. Petitioner wants to extend this rule to
cases like the one at issue here, where the plaintiff, after
filing and serving a praecipe for Writ of Summons in state
court, files suit in federal court past the relevant statute of
limitations period. We decline to do so.
Pennsylvania and federal law fistinguish between
actions commenced in state court and federal court for the
purpose of tolling. 7 The tolling of a claim by virtue of its
initiation in state court by filing a praecipe for Writ of
Summons does not toll a separate action in federal court
irrespective of the similarity of claims.8 Had Bush filed his
complaint in state court, it would not be time-barred – but
he did not do so.
III.
We will affirm the judgment of the District Court.
4

See, eg, Falsetti v. United Mine Workers of Am., 355 F.2d 658, 662
(3d Cir. 1966)(rejecting contention that commencement of prior state
action served to toll the limitations period for subsequently filed
federal action); Ammlung v. City of Chester, 494 F.2d 811, 816 (3d
Cir. 1974)(“The running of a Pennsylvania statute of limitations
against a federal cause of action is not tolled under Pennsylvania
concepts of tolling by the commencement of a similar suit in state
court.); Royal-Globe Ins. Cos. V. hauck Mfg. Co., 335 A.2d 460, 462
(Pa. 1975)(“An action in state court does not toll the running of the
statute of limitations against subsequent action in federal court.”).
8
Ammlung, 494 F.2d at 816.
7

Appendix II
Memoradum Order

Bush v. City of Pittsburgh, et al, Civil Action No. 16-926
Judge Cathy Bissoon
Memorandum Order
Pending before the Court is a Motion for Summary
Judgment (Doc. 94) filed by the Defendants the City of
Pittsburgh (“the City”), Nathan Harper (“Harper”) and
several city Police Officers (the “Officer Defendants”):
Officer Donald Snider (“Snider”), Officer Daniel Joseph
Paga, Jr. (“Paga”), Officer Charles Thomas (“Thomas”),
Officer Morgan Jenkins (“Jenkins”), Officer Charles
Henderson (“Henderson”) and Officer David Cannon
(“Cannon”).

For the reasons stated below, Defendants’

Motion for Summary Judgment will be granted.
Background.

9

On February 15, 2012, around 11:00 pm, a woman
called 911 to report a domestic violence incident at an
Defendants have filed a “Concise Statement of Material Facts”
(hereinafter “Def.’s Facts,” Doc. 96), to which Plaintiff has responded
with a “Responsive Concise Statement of Material Facts” (hereinafter
“Pl.’s Responsive Fact, Doc. 103) that admits, disputes or clarifies
Plaintiff’s position on each paragraph of Def.’s Facts. Plaintiff has
also filed a “Concise Statement of Material Facts in Opposition”
(hereinafter “Pl’s Opposing Facts,” Doc. 105) that sets forth Plaintiff’s
counternarrative of the relevant events. The following facts are
undisputed, unless otherwise noted.

9

address in Pittsburgh, Pennsylvania. (Def.’s Facts P. 1;
Pl.’s Responsive Facts P.1). About ten minutes later, a
second 911 caller reported that a black man wearing a fur
hat and blue jeans was waving a gun around outside.
(Def.’s Facts P. 2; Pl.’s Responsive Facts P.2).

Officer

Snider was dispatched to the address given in the first 911
call. (Def.’s Facts P. 3; Pl.’s Responsive Facts P.3). Upon
arrival, Snider exited his vehicle, drew his weapon, and
saw Plaintiff, who matched the description given by
dispatch. (Def.’s Facts P. 5; Pl.’s Responsive Facts P.5).
Before Snider gave any commands to Plaintiff, an
unidentified woman yelled to Snider “that’s him” and
pointed to Plaintiff. (Def.’s Facts P. 6; Pl.’s Responsive
Facts P.6).
Plaintiff saw Snider with his gun drawn and ran
away – Snider then chased Plaintiff for a distance of about
300 yards, while commanding Plaintiff to “stop” and get on
the ground, and while informing Plaintiff that he was
under arrest. (Def.’s Facts P. 7-9, 12; Pl.’s Responsive Facts
P. 7-9, 12). Defendants allege that Snider saw Plaintiff
remove a firearm from his waistband during the chase;
Plaintiff disputes this fact, and notes that Snider testified
that no gun was ever found.

(Def.’s Facts P. 11; Pl.’s

Responsive Facts P.11, Pl.’s Opposing Facts P 26). Snider

fired his TASER at Plaintiff, but only one prong made
contact and the TASER had no effect. (Def.’s Facts P. 1315; Pl.’s Responsive Facts P.13-15).

Plaintiff escaped

Snider’s view and Snider requested that responding units
establish a perimeter to search for Plaintiff. (Def.’s Facts
P. 16; Pl.’s Responsive Facts P.16). Officer Paga responded
with his canine service dog, Mixo. (Def.’s Facts P. 17; Pl.’s
Responsive Facts P.17).
Mixo located Plaintiff, who was confined in a
narrow, fenced-in backyard area, lying on the ground.
(Def.’s Facts P. 18, 23; Pl.’s Responsive Facts P.18). Paga
shined his flashlight into the enclosure and saw a man
fitting Plaintiff’s description.

(Def.’s Facts P. 16; Pl.’s

Responsive Facts P.16). Plaintiff testified in his deposition
that he remained lying still on his abdomen, with his hands
outstretched in front of him, anticipating that he would be
arrested. (Pl.’s Responsive Facts P 23). A supplemental
Police Report, prepared by Paga and Snider the day after
the incident, indicates that Plaintiff’s hands were tucked
under his chest at this time and that Plaintiff failed to
comply with repeated orders to show his hands. (Def.’s
Fact P 23, 25-26). Sergeant Henderson, who had arrived
at the scene, provided “lethal coverage” while Paga lifted
Mixo over the fence and into the enclosure. (Def.’s Facts P

29; Pl.’s Responsive Facts P 29). Paga commanded Mixo to
bite the Plaintiff in the lower left leg. (Def.’s Facts P. 3233; Pl.’s Responsive Facts P.32-33).
The parties’ accounts diverge sharply at this point.
Defendants state that Plaintiff continued to resist by
failing to sow his hands; that Paga entered the fenced-in
area and removed Plaintiff’s atrms from underneath him
once Mixo had successfully “neutralized” Plaintiff; and that
Officer Thomas, who followed Paga into the enclosure,
handcuffed Plaintiff while Paga called off Mixo. (Def.’s
Fact P. 32-34).
Plaintiff states that he never resisted arrest; that
Defendants repeatedly demanded that he produce a
firearm while Mixo was pulling and tugging him through
the enclosure; that Defendants continued to allow Mixo to
attack and maul his leg; that they told Plaintiff “all you
little Homewood nigger gangsters run around with these
guns, tell us where the gun is”; and that they stomped on
him until he was handcuffed. (Pl.’s Responsive Facts P 3334).

Plaintiff also states that, after handcuffing him,

Defendants began punching him in the ribs and face while
holding him against a nearby garage until he fell down; and
that Defendants then picked him up by the handcuffs,
flipped him over a fence, dragged him by his handcuffs, and

left him with his pants down and genitals exposed,
bleeding profusely, while Mixo barked in his face and
Defendants jeered at him, until emergency medical
services arrived. (Pl.’s Opposing Facts P 65-69).
Plaintiff commenced an action in Pennsylvania state
court against the named Defendants on January 30, 2014
by filing a Praecipe for Writ of Smmons. (Exhibit K to
Def.’s Facts Appendix, Doc. 96-16). Plaintiff commenced
the instant action in this Court on June 22, 2016.
(Complaint, Doc. 1).
ANALYSIS 10
Plaintiff’s Amended Complaint (Doc. 21) contains
eight counts: (1) a 42 USC Section 1983 substantive due
process claim against the Officer Defendants for excessive
use of force; (2) a 42 USC Section 1983 claim against the
City and Nathan Harper, Pittsburgh’s Chief of Police at the
Summary judgment is appropriate if the moving party establishes
“that there is no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a). A dispute is genuine only if there is a sufficient evidentiary
basis for a reasonable jury to find for the non-moving party, and a
fact is material only if it might affect the outcome of the action under
the governing law. See Sovereign Bank v. BJ’s Wholesale Club, Inc.,
477 US 242, 248 (1986)). In ruling on the pending motion for
summary judgment, the court must view the facts, and any
reasonable inferences arising therefrom, in the light most favorable to
the non-moving party. See Moody v. Atlantic City Bd. Of Ed., 2017
WL 3881957, at *1 n1 (3d Cir. Sept. 6, 2017)(citing Hugh v. Butler
Cty. Family YMCA, 418 F.3d 265, 266-67 (3d Cir. 2005)).
10

relevant time, for failure to train and supervise the City’s
police officers with respect to the use of police canines; (3)
a 42 USC Section 1983 claim against Officers Thomas,
Jenkins, Henderson and Canon for failure to intervene to
prevent the use of excessive force; (4) a Civil Rights Act
claim against the Officer Defendants for a race-based
conspiracy to violate Plaintiff’s civil rights; (5) a
Pennsylvania

negligence

claim

against

the

Officer

Defendants; (6) a Pennsylvania battery claim against the
Officer Defendants; (7) a Pennsylvania assault claim
against the Officer Defendants; and (8)a Pennsylvania
intentional infliction of emotional distress claim against
the Officer Defendants. (Amended Complaint P. 55-100).
Defendants move for summary judgment on several
grounds, including that the applicable two-year statute of
limitation bars this action, as Plaintiff’s state court action,
which was not removed to federal court, did not toll the
statute as to the instant action. 11
The remaining grounds are: the Fourth Amendment entirely
subsumes Plaintiff’s Fourteenth Amendment substantive due process
claim; as to the claims against the City and Harper, Plaintiff’s
evidence is insufficient to establish each element of a municipal
liability claim’ qualified immunity shields all defendants from
liability for excessive force; Plaintiff’s evidence is insufficient to
establish a claim for failure to intervene; Plaintiff’s evidence is
insufficient to establish a conspiracy to violate Plaintiff’s
constitutional rights; and to the extent that Plaintiff’s several
11

Statute of Limitations
The statute of limitations for personal injury torts in
the state where a cause of action arose determines the
length of the limitations period for a claim under 42 USC
Section 1983. Wallace v. Kato, 549 U.S. 384, 387 (2007).
Pennsylvania sets a two-year limitations period for
personal injury torts. 42 Pa.C.S. Sec. 5524; see also Kach
v. Hose, 589 F.3d 626, 634 (3d Cir. 2009). The accrual date
for a claim under 42 U.S.C. Section 1983, set by federal law,
is the date on which “plaintiff has a complete and present
cause of action” such that “plaintiff can file suit and obtain
relief.” Wallace, 549 U.S. at 388 (internal citations and
quotation marks omitted). “State law governs the question
[of] whether an applicable state statute of limitations is
tolled in an action brought under the federal Civil Rights
Act.” Ammlung v. City of Chester, 494 F.2d 811, 815 (3d
Cir. 1974)’ accord Humphries v. Houghton, 422 F. App’x
626, 628 n.3 (3d Cir. 2011).
Concerning Pennsylvania law on tolling, Plaintiff
argues that filing a praecipe for writ of summons in state
court within the two-year limitations period, and then
Pennsylvania state law tort claims are not barred under the
Pennsylvania Subdivision Tort Claims Act, Plaintiff has failed to
provide sufficient evidence to establish them. (See generally Def.’s
SJM Brief.)

serving all defendants, is sufficient to toll the limitations
period indefinitely, satisfying the statute of limitaitons.
(Pl.’s Brief Opposing Defendants Motion for Summary
Judgment, 5, Doc. 104).

Plaintiff cites Galbraith v.

Gahagen, 204 A.2d 251 (Pa. 1964), for the proposition that
“where the plaintiff has had the summons served upon the
defendant, and the defendant is thus brought onto the
record by proper service and he is thus made aware of the
lawsuit pending against him, he cannot complain if the
plaintiff takes his time and files the Complaint more than
two years after service.” Id. At 252. Rather, a served
defendant seeking to avoid delay must “employ the weapon
given him under [Pennsylvania] Rule [of Civil Procedure]
1037,” id., which allows a defendant to file a praecipe that
compels a plaintiff to either file a complaint within twenty
days or face a judgment of non pros, PA.R.Civ.P. 1037(a).
See Schultz v. Honick, 2012 WL 393501, at *3 (W.D. Pa.
Feb. 6, 2012)(“In sum, under Pennsylvania law once the
writ of summons is timely served and the statute of
limitations is satisfied and defendant’s only remedy lies in
Rule 1037).
Contrary

to

Plaintiff’s

understanding

of

the

applicable tolling rule, Defendants argue that the tolling
rule described in Galbraith applies only to a lawsuit

initiated by filing a praecipe for writ of summons – not to a
separately filed federal lawsuit related to the same events.
(Def.;s SJM Brief 8). In other words, a state court-filed
praecipe for writ of summons will toll the statute of
limitations for a removed action, but not for an action
originally initiated in federal court by a plaintiff. (Id.).
The court agrees with Defendants. Every federal
court applying Pennsylvania law to this question has
reached the same conclusion: absent an equitable reason
for tolling, filing a praecipe for writ of summons in sate
court does not toll the statute of limitations for a separate
action that a plaintiff initiates later in federal court. E.g.,
McCreary v. Redevelopment Auth. Of City of Erie, 427
F.App’x 211, 215 (3d Cir. 2011)(“[t]he running of a
Pennsylvania statute of limitations against a federal cause
of action is not tolled under Pennsylvania concepts of
tolling by commencement of a similar suit in state court”
(quoting Ammlung, 494 F.2d at 816)); Pettinato v.
Allegheny Cty., 2011 WL 2672040, at *7 (W.D. Pa. July 8,
2011)(“tolling based on state court filings (such as a writ of
summons) is particularly distasteful when a plaintiff is in
federal court on his or her own choosing, and not because
the case is removed to a federal forum”), Baranowski v.
Waters, 2008 WL 728366, at *9 (W.D. Pa. Mar. 18,

2008)(“[T]he commencement of one action does not
automatically toll Pennsylvania’s two-year statute of
limitations for purposes of a later action.”), vacated in part
on other grounds, 2008 WL 4000406 (W.D. Pa. Aug. 25,
2008), aff’d, 370 F.App’x 318 (3d Cir. 2010); Davis v.
Malizki, 2009 WL 3467770, at *9, *9n.8 (E.D. Pa. Oct. 27,
2009)(“Plaintiff commenced his federal lawsuit…by filing
his original Complaint.[] Although Plaintiff’s argument
that a writ of summons tolls a statute of limitation may
generally be correct under Pennsylvania law, there is a
fatal flaw as applied to this case because Plaintiff’s state
court case was not removed to this federal court.” (footnote
combined with preceding text)); see also Stinson v. Kaiser
Gypsum Co., Inc., 972 F.2d 59, 62 (3d Cir. 1992)(“While a
timely filed complaint or praecipe for writ of summons
satisfies the statute of limitations under Pennsylvania law
as far as that action is concerned, the Pennsylvania rule as
to new actions is the same as the generally accepted rule.”).
Plaintiff attempts to distinguish its case from these
precedents by arguing that he timely served all defendants
in the state action, placing them on notice of Plaintiff’s
claims. (Pl.’s SJM Brief 5-6). However, this distinction is
irrelevant to Pennsylvania law on tolling as to separately
filed action. See Pettinato, 2011 WL 2672040, at *7(the

fact that plaintiff had filed and served a writ of summons
in state court prior to initiating a separate federal suit does
not alter the tolling analysis under state law); cf. Stinson,
972 F.2d at 62 (distinguishing the Pennsylvania tolling
rules applicable to separately filed actions from those
applicable to a single action).
The parties agree that Plaintiff’s cause of action
accrued on February 15, 2012. (Pl.’s SJM Brief 7; Def.’s
SJM Brief 8). Plaintiff filed the instant action on June 22,
2016, over four years later. Nothing operated to toll the
two-year statute of limitations during that time as to the
instant action. Plaintiff’s federal claims – as well as his
related personal injury tort claims under state law – are
barred by the two-year statute of limitations.
Accordingly, Defendants’ Motion for Summary
Judgment (Doc 94) is GRANTED. Plaintiff’s claims are
DISMISSED, with prejudice, as time-barred.
IT IS SO ORDERED

/s/ Cathy Bissoon
Cathy Bissoon, District Judge
November 30, 2018

JUDGMENT ORDER
For the reasons set forth in the Memorandum
Order filed contemporaneously herewith, and pursuant to
Rule 58 of the Federal Rules of Civil Procedure, FINAL
JUDGMENT is hereby entered. The case has been
marked closed.

/s/ Cathy Bissoon
Cathy Bissoon, District Judge
November 30, 2018

